                                  NATIONAL SCIENCE FOUNDATION
                                  OFFICE OF INSPECTOR GENERAL
                                    OFFICE OF INVESTIGATIONS

                              CLOSEOUT MEMORANDUM



During a panel review in December 2001, a reviewer noted that two REU proposals
(PI1 and P22) from two PIS (PI1 and PI2, respectively) a t different institutions were
essentially the same. We reviewed the proposals and agreed with the reviewers'
assessment. We contacted the subjects to seek their explanations about the
apparently duplicate proposals.

The subjects stated they have a history of working together and began working
together on this REU project in 1999. They each contributed to it and considered it
a joint effort. In addition to consulting her grants office, PI1 asked a n NSF
Program Manager (PM)3 for suggestions about how to submit their proposal.
Specifically, she asked the PM if two institutions were collaborating on a REU
project, to the extent that more than 50% of their efforts overlapped, should the PIS
submit separate proposals from both universities or submit a joint proposal. The
PM responded that unless there was a compelling reason why the two universities
must work together, they would be better off with two separate proposals.

Thus, the PIS followed the NSF PM's suggestion to submit separate proposals. As
PI1 noted, REU proposals are infrastructure awards that enhance a n institution's
ability to engage undergraduates in research, so that even if P l and P2 had been
funded (neither was), it should not have been considered duplicative funding.
Because of the circumstances, including the nature of the proposals and the PIS
following the PM's advice, we conclude there is insufficient substance to the
allegation to pursue. Accordingly, this case is closed, and we will take no further




   1 (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).




                                                                               OIG-02-2
